Highlights
Table of Contents




                    Overtime at
                    the Iowa City
                    Post Office
Findings




                    Management
Recommendations




                    Advisory Report

                    Report Number
                    HR-MA-14-009

                    September 18, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                              Background                                                         What The OIG Found
                                                            This report responds to a request from Iowa Senator                The amount of overtime at the Iowa City Post Office was
                                                            Charles E. Grassley regarding a constituent’s concern about        significantly greater than the national goal. Specifically, in fiscal
                                                            excessive overtime at the Iowa City Post Office. The constituent   year 2013, overtime was 13.9 percent of total workhours at the
                                                            alleged the majority of the 140 employees at the facility have     Iowa City facility compared to the Postal Service’s national goal
Findings




                                                            worked 6 days a week for more than a year.                         of 5.6 percent, and the national average rate of 9.3 percent.
                            In FY 2013, overtime was
                                                            Overtime is a premium eligible employees receive for work          Also, from January 2013 through January 2014, Iowa City Post
                      13.9 percent of total workhours       performed in excess of 8 paid hours in a day or 40 paid hours      Office employees, on average, worked 6 days a week,
                                                            in a week. The U.S. Postal Service uses overtime to provide        40 percent of the time. The facility used a large amount of
                         at the Iowa City Post Office
                                                            flexibility and meet its operational requirements efficiently      overtime because carrier positions were understaffed and
                    compared to the Postal Service’s        without having to increase its overall complement.                 parcel volumes increased. Additionally, facility management did
                                                                                                                               not perform route inspections or effectively divide overburdened
Recommendations




                                    national goal of        Iowa City’s economic growth has contributed to the metropolitan    or vacant routes among carriers. Finally, management did not
                                                            area having the eighth lowest unemployment rate in the nation.     follow overtime procedures, resulting in overtime grievance
                        5.6 percent, and the national
                                                            Iowa City has experienced low unemployment for an extended         payouts 179 percent higher than the national average.
                         average rate of 9.3 percent.       period, which has created challenges for management in hiring
                                                            and retaining employees. Our objective was to evaluate the use     If management does not properly staff the facility, manage
                                                            of overtime at the Iowa City Post Office.                          parcel volume increases, use available tools to control overtime,
                                                                                                                               and follow overtime procedures, the Postal Service could
                                                                                                                               be exposed to unnecessary grievances and incur additional
                                                                                                                               overtime costs. Excessive overtime could also harm
                                                                                                                               employee morale.
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                        Print                                      1
Highlights
Table of Contents




                                                                                                               What The OIG Recommended
                                                                  Iowa City Post Office                        We recommended management implement a plan to recruit
                                                               overtime was well above the                     and retain employees at the Iowa City Post Office; implement
                                                              Postal Service’s national goal.                  procedures to ensure all routes are structured within 8 hour
                                                                                                               assignments; implement procedures to ensure management
                                                                          Postal      Postal
Findings




                                                            Roll over                            Iowa City     pivots available routes; and train facility management on
                                                            to see how   Service’s   Service’s
                                                            Iowa City                            Post Office   techniques to effectively manage overtime to reduce
                                                                         national    national
                                                            compares                              overtime     overtime grievances.
                                                                           goal      average

                                                            15%
Recommendations




                                                            12%



                                                            9%



                                                            6%
Appendices




                                                            3%



                                                            0%
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                      Print                                   2
Highlights
                    Transmittal Letter


                                                            September 18, 2014
Table of Contents




                                                            MEMORANDUM FOR:	           WILLIAM J. HERRMANN
                                                                                       DISTRICT MANAGER, HAWKEYE DISTRICT
                                                                                            E-Signed by Janet Sorensen
                                                                                       VERIFY authenticity with eSign Desktop




                                                            FROM: 			                  Janet M. Sorensen
                                                                                       Deputy Assistant Inspector General
                                                                                        for Revenue and Resources
                                                            	
                                                            SUBJECT: 			 Management Advisory Report – Overtime
                                                            				         at the Iowa City Post Office
Findings




                                                            				(Report Number HR-MA-14-009)

                                                            This report presents the results of our review of the use of Overtime at the Iowa City
                                                            Post Office (Project Number 14YR002HR000).

                                                            We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                            questions or need additional information, please contact Monique P. Colter, director,
                                                            Human Resources and Support, or me at 703-248-2100.
Recommendations




                                                            Attachment

                                                            cc:	 Corporate Audit and Response Management
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                   Print             3
Highlights
                    Table of Contents

                                                            Cover
                                                            Highlights.......................................................................................................1
                                                             Background.................................................................................................1
                                                             What The OIG Found..................................................................................1
Table of Contents




                                                             What The OIG Recommended...................................................................2
                                                            Transmittal Letter...........................................................................................3
                                                            Findings.........................................................................................................5
                                                             Introduction.................................................................................................5
                                                             Conclusion..................................................................................................5
                                                             Overtime at the Iowa City Post Office.........................................................6
                                                               Employee Staffing....................................................................................6
                                                               Parcel Volume .........................................................................................7
                                                               Management Oversight............................................................................8
                                                            Recommendations......................................................................................10
Findings




                                                             Management’s Comments........................................................................10
                                                             Evaluation of Management’s Comments.................................................. 11
                                                            Appendices..................................................................................................12
                                                             Appendix A: Additional Information...........................................................13
                                                               Background ...........................................................................................13
Recommendations




                                                               Objective, Scope, and Methodology.......................................................14
                                                               Prior Audit Coverage..............................................................................15
                                                             Appendix B: Management’s Comments....................................................16
                                                            Contact Information.....................................................................................18
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                  Print                          4
Highlights
                    Findings                                Introduction
                                                            This report presents the results of our review of postal employee overtime in Iowa City, IA (Project Number 14YR002HR000).
                                                            The report responds to a request from Senator Charles E. Grassley of Iowa regarding a constituent’s concern about excessive
                                                            overtime at the Iowa City Post Office. The constituent alleged a significant number of employees at the facility have worked 6 days
                                                            a week for more than a year. Our objective was to evaluate the use of overtime at the Iowa City Post Office. See Appendix A for
                                                            additional information about this audit.

                                                            U.S. Postal Service overtime is work eligible employees perform in excess of 8 paid hours in a day or 40 paid hours in a week.
Table of Contents




                                                            Employees receive premium pay for overtime work. The Postal Service uses overtime to provide flexibility and meet its operational
                                                            requirements efficiently without having to increase its overall complement.

                                                            The Iowa City Post Office has about 140 bargaining and nonbargaining employees.1 Postal Service management must adhere to
                                                            overtime rules and regulations contained in Postal Service handbooks and manuals and included in union contracts.2 Management
                                                            has also developed tools required to control and monitor overtime. For example, the Delivery Operation Information System
                                                            (DOIS) is used to manage delivery operations and assess workload to project carrier office and street times based on
                                                            mail volumes.

                                                            Conclusion
                                                            Iowa City Post Office overtime was well above the Postal Service’s national goal. Specifically, overtime represented 13.9 percent
Findings




                                                            of total workhours in fiscal year (FY) 2013 at the facility compared to the Postal Service’s planned overtime rate of 5.6 percent and
                                                            the national average rate of 9.3 percent. In addition, from January 2013 through January 2014, employees at the Iowa City Post
                                                            Office, on average, worked 6 days a week, 40 percent of the time.

                                                            The Iowa City Post Office used a large amount of overtime because carrier positions were understaffed and parcel volumes
                                                            increased. Additionally, facility management did not perform route inspections or effectively divide overburdened or vacant routes
                                                            among carriers. Finally, management did not follow overtime procedures, resulting in overtime grievance payouts 179 percent
                                                            higher than the national average.3 If management does not properly staff the facility, manage parcel volume increases, use
Recommendations




                                                            available tools to control overtime, and follow overtime procedures, the Postal Service could incur unnecessary overtime costs.
                                                            Excessive overtime could also harm employee morale.
Appendices




                                                            1	   Average number of employees at the Iowa City Post Office for a 12-month period (April 2013 – March 2014).
                                                            2	   Major unions for Postal Service employees are American Postal Workers Union, National Association of Letter Carriers, National Rural Letter Carriers’ Association, and
                                                                 National Postal Mail Handlers Union.
                                                            3	   The Hawkeye District manager expressed concerns with the overtime and grievance comparisons and requested comparisons with facilities with similar complements,
                                                                 and specifically with regard to city carriers. However, the complaint we received was not limited to a specific craft; therefore, we reviewed all overtime at the Iowa City
                                                                 Post Office and based our comparisons on the Postal Service’s goals and national averages.
                    Overtime at the Iowa City Post Office   This report has not yet been reviewed for release under FOIA or the Privacy Act. Distribution should be limited to those within the Postal Service with a need to know.
                    Report Number HR-MA-14-009
                                                                                                                                                                                       Print                                                   5
Highlights                                                  Overtime at the Iowa City Post Office
                                                            The Iowa City Post Office used a significant amount of overtime and the facility’s overtime rate was consistently above the
                                                            Postal Service’s goal. To meet service standards, Postal Service employees at the Iowa City Post Office were often required
                                                            to work overtime, including daily,4 scheduled days off, and holidays. From January 2013 through January 2014, on average,
                                                            employees at the Iowa City Post Office5 worked 6 days a week, 40 percent of the time. During that period, one employee did not
                                                            have any days off,6 one employee had just 1 day off, and two employees had 3 days off.
                        In FY 2013, the Iowa City Post
                                                            In FY 2013, the Iowa City Post Office paid three carriers and two mail processing clerks between $27,000 and $36,000 each in
Table of Contents




                        Office paid three carriers and      overtime workhours,7 which represented between 51 and 65 percent of their regular base salaries (see Table 1).
                          two mail processing clerks
                                                            Table 1. FY 2013 High Earner Employees at the Iowa City Post Office
                        between $27,000 and $36,000
                                                                                                                                                                                                         Percentage of
                         each in overtime workhours,                                                                                                                                                     Overtime Dollars
                                                             Category                            FY 2013 Salary                    Overtime                           Total Compensation                 to Salary
                          which represented between
                                                             City Carrier                        $56,508                           $36,867                            $93,375                            65%
                            51 and 65 percent of their       City Carrier                        $56,508                           $30,535                            $87,043                            54%

                               regular base salaries.        City Carrier                        $56,508                           $30,528                            $87,036                            54%
                                                             Mail Processing Clerk               $54,777                           $28,875                            $83,652                            53%
Findings




                                                             Mail Processing Clerk               $52,967                           $27,271                            $80,238                            51%
                                                             Source: Postal Service Datakeeper System.



                                                            The high rate of overtime occurred because employee staffing was inadequate, parcel volumes increased and management
                                                            oversight was ineffective.

                                                            Employee Staffing
Recommendations




                                                            Facility management did not consistently have enough city and rural carriers on staff and did not have an effective plan to recruit
                                                            and retain employees at the Iowa City Post Office. Instead, management used overtime to meet service standards. According
                                                            to Postal Service policy, all levels of managers throughout the Postal Service are responsible for planning and implementing
                                                            administrative and operating methods that comply with organizational structures and staffing.8 Also, managers should ensure that
                                                            staffing meets the unit’s objective.9
Appendices




                                                            4	   More than 8 hours.
                                                            5	   Reviewed 113 Iowa City Post Office employees’ overtime hours.
                                                            6	   Based on a 6-day workweek.
                                                            7	   For this report overtime also includes penalty overtime hours. Penalty overtime is compensation paid to eligible personal at two times the employee’s base hourly straight
                                                                 time rate.
                                                            8	   Employee and Labor Relations Manual (ELM) 36, September 2013, Section 112.3.
                                                            9	   ELM 36, Section 151.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                                                     Print                                                6
Highlights                                                  City carrier positions were understaffed for 1 quarter in FY 2014 and 3 quarters in FY 2013. Table 2 shows the number of
                                                            employees on the payroll, total earned positions10 based on mail volume, and the number and percentage of unfilled carrier
                                                            positions for each quarter.

                                                            Table 2. City Carrier Complement Analysis for Iowa City

                                                             FY – Quarter (Qtr)                  Paid Employees                       Earned Positions               Employees Short                    Percentage Short
                        Iowa City has had one of the
                                                             FY 2014 - Qtr 2                                     64                                62                                0                                 0%
Table of Contents




                       lowest unemployment rates in          FY 2014 - Qtr 1                                     58                                64                                6                                 9%
                        the nation. Its unemployment         FY 2013 - Qtr 4                                     57                                61                                4                                 6%

                         rate is currently 2.7 percent,      FY 2013 - Qtr 3                                     62                                61                                0                                 0%
                                                             FY 2013 - Qtr 2                                     57                                63                                6                                 9%
                           compared to the national
                                                             FY 2013 - Qtr 1                                     55                                65                               10                                16%
                              average of 6.7 percent.        Sources: Enterprise Data Warehouse (EDW) system and City Delivery Variance website.



                                                            The Postal Service pays carrier assistants wages that are comparable to other major employers in the area. Facility management
                                                            can hire a predetermined number of noncareer carrier assistants11 to minimize overtime use and increase flexibility and efficiency.
                                                            However, management experienced challenges with hiring and retaining city carrier assistants (CCAs) and rural carrier assistants
Findings




                                                            (RCAs)12 to deliver mail because Iowa City has had one of the lowest unemployment rates in the nation – its unemployment rate is
                     In FY 2013, on average, carriers       currently 2.7 percent, compared to the national average of 6.7 percent13 – and the facility is located in an affluent area with strong
                                                            economic growth.
                         nationwide delivered about
                                                            Furthermore, the retention rate for the carrier assistants was low because of the limited benefits,14 harsh working conditions
                         55 packages per route while
                                                            (for example, volatile weather, physical wear and tear on the body), and excessive overtime. From February 2011 to May 2014,15
                      the Iowa City carriers delivered      the Iowa City Post Office hired 78 mail carriers consisting of transitional employees16 (TE), RCAs, or CCAs. Twenty-three (29
                                                            percent) of them were converted to full-time carriers. Of the remaining employees, 39 (50 percent) resigned and 16 (21 percent)
Recommendations




                        about 95 packages per route.        were terminated.

                                                            Parcel Volume
                                                            The Iowa City Post Office experienced large growth in parcel deliveries. It typically takes more time to deliver parcels because
                                                            many of them have to be hand delivered for customer signatures or do not fit in mailboxes. In FY 2013, on average, carriers
                                                            nationwide delivered about 55 packages per route while the Iowa City carriers delivered 73 percent more, or about 95 packages
                                                            per route. From FYs 2010 to 2013, parcel delivery in Iowa City increased by about 46 percent. Figure 1 shows the Iowa City parcel
                                                            volume growth for FYs 2010 through 2013.


                                                            10	 Earned positions refers to the number of employees allocated to a facility based on workhours, productivity, workload, routes, and delivery analysis using standardized
Appendices




                                                                productivity targets and performance trends.
                                                            11	 Based on facility mail volume.
                                                            12	 Noncareer city and rural carrier employees.
                                                            13	 As of March 2014.
                                                            14	 CCAs earn no sick leave, and health benefits can only be obtained after the completion of the first appointment of 360 days.
                                                            15	 May 6, 2014.
                                                            16	 TE were noncareer employees and were replaced with the CCA positions in April 2013.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                                                    Print                                                 7
Highlights
Table of Contents                                           Figure 1. Iowa City Post Office Parcel Volume FYs 2010 to 2013




                                                            Source: eFlash.



                                                            The DOIS is a Postal Service tool used to manage delivery operations and assess workload to project carrier office and street
                                                            times based on mail volumes and route structures.17 We noted that facility management did not record additional parcels over
                                                            base18 in DOIS. A DOIS Workload Status Report19 showed that on March 19, 2014, Iowa City carriers delivered about 17 parcels
                                                            per carrier route. However, we found that Iowa City carriers on average delivered about 95 packages per route.

                                                            According to facility management since the DOIS did not account for all parcels, overtime was frequently granted to carriers
                                                            to complete their routes. The Postal Service recently updated the DOIS system20 nationwide allowing management to allocate
                                                            additional street time to overburdened routes. The update will allow facilities to adjust parcels in the system, adequately project
                                                            delivery street times, and provide carriers with sufficient delivery time for overburdened routes. As a result, we are not making a
Findings




                                                            recommendation.

                                                            Management Oversight
                                                            Facility management did not always use the tools available, such as route inspections and pivoting,21 to manage the workforce and
                                                            align it with the workload. This contributed to the high use of overtime. Additionally, the Postal Service incurred additional costs
                                                            because overtime policies and procedures were not followed. Specifically:
Recommendations




                                                            ■■ Facility management had not conducted Route Inspections22 for city carriers within the past 3 years at the Iowa City Post Office
                                                               to ensure all routes were structured within 8 hour assignments. In FY 2011, the Coralville, IA, carriers were transferred to the
                                                               Iowa City Post Office; however, management did not adjust the affected routes to account for the additional travel time between
                                                               Iowa City and Coralville. Facility management acknowledged that an office-wide route inspection had not been performed at
                                                               the unit within the past 3 years.
Appendices




                                                            17	   DOIS is a postal wide system managed by Postal Service Headquarters.
                                                            18	   Base is a predetermined number of parcels per route resulting from previous route inspections.
                                                            19	   A management report estimating carriers’ office and street time based on mail volume.
                                                            20	   DOIS Client 5.2.0 Release Notes. The deployment started on May 20, 2014, and ended on June 5, 2014.
                                                            21	   Pivoting allows a route to be divided in sections and assigned to various carriers for delivery.
                                                            22	   Count mail and evaluate data to adjust routes to ensure the workload for each route will be within an 8-hour workday for the carrier.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                                                       Print              8
Highlights                                                        Route adjustments play a prominent part in maintaining regular deliveries and conserving workhours.23 To achieve and
                                                                  maintain an appropriate daily workload for delivery units and routes, management must conduct route and unit reviews at least
                                                                  annually.24 The ideal route begins and ends as near as practicable to the delivery unit.25

                                                            ■■ Facility management did not take advantage of undertime26 by dividing vacant or overburdened routes among carriers who
                                                               completed their routes early. This practice is called pivoting. The City Delivery Pivot Opportunity Model showed Iowa City
                                                               management pivoted, on average, about 16 percent of the routes available for pivoting during the last 6 months.27 During the
                                                               same period, the national pivoting average was about 50 percent. Postal Service management’s goal is to pivot 100 percent of
                                                               the opportunities at each unit.
Table of Contents




                                                                  According to facility management the opportunities for pivoting were diminished because the new CCAs were being trained
                                                                  and the seasoned carriers were assisting them with their routes. This resulted in additional overtime to accommodate the new
                                                                  CCAs’ learning curve. In addition, routes were not always pivoted because the facility did not have sufficient carrier supervisors
                                                                  or the supervisors were inexperienced. The U.S. Postal Service Office of Inspector General (OIG) recognizes the need to train
                                                                  new employees and supervisors; however, the facility should strive to achieve the national pivoting averages.

                                                            ■■ Facility management did not always adhere to union contracts, policies, and procedures for allocating overtime to employees.
                                                               For example, when the need for overtime arises, management must initially select employees from the overtime desired list.
                                                               Management may require employees not on the list to work overtime only if all available employees who have requested
                                                               overtime have worked the maximum allowed for the day or week.28 In addition, the Postal Service’s Delivering Results,
Findings




                                                               Innovation, Value, and Efficiency (DRIVE) Initiative 45, requires management to develop technology enhancements to reduce
                                                               overtime grievance costs.29

                                                                  According to facility management, overtime policies and procedures were not always followed because there were not enough
                                                                  employees to meet the facility’s operational requirements. Because overtime policies and procedures were not followed at the
                                                                  Iowa City Post Office, employees filed grievances and received grievance payouts. From May 2013 to April 2014, the
                                                                  Postal Service paid, on average, $82 per employee nationwide for grievances related to overtime. During the same period, the
                                                                  Iowa City Post Office overtime grievance payout was 179 percent higher than the national average, or $229 per employee.
Recommendations




                                                            If facility management does not ensure adequate staffing, manage parcel volume growth, use available tools to control overtime,
                                                            and follow overtime procedures, the Postal Service could unnecessarily incur additional overtime costs. Excessive overtime could
                                                            also harm employee morale.
Appendices




                                                            23	   Handbook M -39, Management of Delivery Services, Section 242.11, March 1, 1998, updated with Postal Bulletin revisions through March 18, 2004.
                                                            24	   Handbook M – 39, Section 211.1.
                                                            25	   Handbook M – 39, Section 242.121.
                                                            26	   Extra time resulting from a carrier returning from his or her route before the established schedule.
                                                            27	   The City Delivery Pivot Opportunity Model contains only 6 months of historical data. The timeframe reviewed was from September 28, 2013, to March 28, 2014.
                                                            28	   National Agreement between the National Association of Letter Carriers and the U.S. Postal Service 2011 – 2016, Article 8.5.
                                                            29	   DRIVE is a management process used by the U.S. Postal Service Strategic Management Office to improve business strategy development and execution.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                                                  Print                                         9
Highlights
                    Recommendations                         We recommend the district manager, Hawkeye District:

                                                            1.	 Establish and implement a plan to recruit and retain employees at the Iowa City Post Office.

                                                            2.	 Implement procedures to ensure all routes are structured within 8-hour assignments to reduce overtime use.

                                                            3.	 Implement procedures to ensure Iowa City Post Office management pivots available routes.
                        We recommend management
                                                            4.	 Train facility management on techniques to effectively manage overtime with existing staff to reduce overtime grievances.
Table of Contents




                          establish and implement a
                            plan to recruit and retain      Management’s Comments
                        employees at Iowa City Post         Management did not state whether they agreed or disagreed with the finding and recommendations in their comments dated
                                                            September 8, 2014. In subsequent correspondence dated September 18, 2014, management agreed with the finding and
                     Office; implement procedures to        recommendations but noted concerns about our comparisons of overtime rate and grievance payouts to the Postal Service
                                                            national overtime goal and average grievance payout. They stated the national overtime plan calculation of over 9 percent was
                     ensure all routes are structured
                                                            limited to retail employees and city carriers, and the national overtime rate calculation of 5.6 percent and average grievance
                      within the 8-hour assignments         payouts were based on all Postal Service employees. In addition, they stated grievance payout comparisons were overstated
                                                            because they were not limited to the carrier function. In subsequent correspondence, management stated the percentage of
                      to reduce overtime; implement         employees working 6 days was overstated and should be 32 percent for career clerks and carriers.
                      procedures to ensure Iowa City
Findings




                                                            Regarding recommendation 1, management implemented a hiring plan based on 28 successful hiring best practices shared by the
                     Post Office management pivots          Central Plains District. Iowa City utilized newspaper, Internet, billboard, and magazine media to post job openings. The office also
                                                            used a postmaster full time to assist in hiring activities.
                        available routes; train facility
                                                            Regarding recommendation 2, management stated that 18 city routes and 19 rural routes were moved from Iowa City Main Post
                      management on techniques to
                                                            Office to the Coralville Branch on August 9. All city and rural routes are being evaluated and will be adjusted, as appropriate, by
                    effectively manage overtime with        September 5, 2014. In subsequent correspondence, management provided a target implementation date of November 1, 2014.
Recommendations




                             existing staff to reduce       Regarding recommendation 3, management stated they have had a significant turnover in their supervisor positions. They
                                                            have utilized an operations support specialist to work on site at the facility to coach the new management team and develop
                               overtime grievances.
                                                            effective pivot plans. In subsequent correspondence, management stated the training and creation of pivot plans were completed
                                                            September 5, 2014.

                                                            Regarding recommendation 4, management stated the district will provide unit management with training to improve the
                                                            management of city carrier overtime and reduce grievance payouts by October 8, 2014. In addition, a labor specialist has
                                                            been assigned to coach unit management whenever a city carrier overtime grievance is filed. In subsequent correspondence,
                                                            management provided a target implementation date of October 1, 2014.
Appendices




                                                            See Appendix B for management’s comments, in their entirety.




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                        Print                                     10
Highlights                                                  Evaluation of Management’s Comments
                                                            The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
                                                            identified in the report.

                                                            We reviewed all overtime and grievance payouts at the Iowa City Post Office and did not limit the scope of the audit to the retail
                                                            employees and city carriers. Specifically, we compared the overtime rate, overtime grievance payouts, and scheduled days off for
                                                            the Iowa City Post Office to the Postal Service national overtime goals, average grievance payouts, and scheduled days off for all
                                                            employees because the complaint we received did not identify a specific craft.
Table of Contents




                                                            The OIG considers all the recommendations significant, and therefore requires OIG concurrence before closure. Consequently,
                                                            the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                            Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Findings
Recommendations
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                      Print                                  11
Highlights
                    Appendices

                                                            Appendix A: Additional Information...........................................................13
                                                             Background ...........................................................................................13
                                                             Objective, Scope, and Methodology.......................................................14
                          Click on the appendix title        Prior Audit Coverage..............................................................................15
Table of Contents




                                                            Appendix B: Management’s Comments....................................................16
                           to the right to navigate to
                                the section content.
Findings
Recommendations
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                            Print                       12
Highlights          Appendix A:                             Background
                    Additional Information                  The principal objective of Postal Service compensation policies is to provide compensation that is comparable to compensation
                                                            paid for similar work in the private sector. Postal Service overtime is a premium eligible employees receive for work performed
                                                            after 8 paid hours in a day or 40 paid hours in a week. The overtime rate is one and one half times the basic hourly rate. The Fair
                                                            Labor Standards Act (FLSA) also requires payment of overtime wages to employees who work in excess of 40 hours in an
                                                            FLSA work week.

                                                            Iowa City’s economic growth has contributed to it having the 8th lowest unemployment in the nation30 as of March 2014, and the
Table of Contents




                                                            metropolitan area is expected to lead the state in economic growth for 2014. The Federal Reserve uses the term “full employment”
                                                            in areas where the unemployment rate is between 5.2 and 5.6 percent. Iowa City has experienced “full employment” for an
                                                            extended period, which has created challenges for management in hiring and retaining employees. In 2010, Iowa City was one
                                                            of only two cities nationwide with an unemployment rate below 5 percent. Figure 2 shows the Iowa City and the U.S. national
                                                            average unemployment rates for 2010 through 2014.

                                                            Figure 2. Iowa City and U.S. National Unemployment Rates
Findings




                                                            Source: U.S. Bureau of Labor Statistics.


                                                            In April 2013, the Postal Service created the CCA position to replace the TE position.31 CCA employees are noncareer employees
Recommendations




                                                            the Postal Service hires for 360-day terms. After a break in service of 5 days, the CCAs can be hired for additional 360-day terms.
                                                            CCAs receive fewer benefits than career carriers. Based on seniority, CCAs may bid for vacant routes within their installation.
                                                            Successful applicants are converted to regular career status employees.

                                                            Facility complement varies from month to month and is generally based on the facility’s workload. Table 3 shows the total number
                                                            of employees at the Iowa City Post Office, categorized by function, for FYs 2010 through 2013.
Appendices




                                                            30	 According to the U.S. Bureau of Labor Statistics, as of March 2014, the Iowa City metropolitan area’s unemployment rate was 3.4 percent.
                                                            31	 CCAs shall not exceed 15 percent of the total number of full-time, career city carriers in that district. In addition, the Postal Service may hire an additional 8,000 CCAs;
                                                                however, the additional hires shall not exceed 8 percent of the total number of full time career city carriers in that district.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                                                        Print                                                  13
Highlights                                                  Table 3. Number of Employees at the Iowa City Post Office

                                                             Function                                                    FY 2010     FY 2011         FY 2012                 FY 2013
                                                             RURAL DELIVERY                                                  15        20               29                     31
                                                             DELIVERY SERVICES                                               59        51               46                     47
                                                             VEHICLE SERVICES                                                 1        1                 1                     1
                                                             3B PLANT & EQUIPMENT                                             2        2                 2                     2
Table of Contents




                                                             4 CUSTOMER SERVICES                                             31        31               29                     24
                                                             67 NON-WORK/OWCP32                                               0        0                 0                     0
                                                             7 MARKETING/COMMUNICATIONS                                       1        1                 1                     1
                                                             8A POSTMASTER/SUPERVISOR                                         2        2                 2                     2
                                                             RURAL SUB/RCA/RCR/AUX/VAC33                                      9        15               20                     14
                                                             POSTAL SUPPORT EMPLOYEES                                         0        0                 2                     2
                                                             CCA                                                              0        0                 0                     9
                                                             TRANSITIONAL                                                     3        6                11                     3
                                                             Total                                                          122       128              143                     135
Findings




                                                             Source: EDW.



                                                            Hawkeye District management has tools they are required to use to control and monitor overtime. For example, DOIS is used to
                                                            manage delivery operations and provides workload assessment to project carrier office and street times based on mail volumes.
                                                            Other tools available to monitor and control overtime are automated alerts, time and attendance system, and staffing
                                                            analysis reports.
Recommendations




                                                            Objective, Scope, and Methodology
                                                            Our objective was to evaluate the overtime use at the Iowa City Post Office. To accomplish this objective, we:

                                                            ■■ Reviewed overtime data for the Iowa City Post Office for FYs 2010 through 2014.

                                                            ■■ Evaluated the hiring process.

                                                            ■■ Obtained and reviewed workload information to determine need for overtime.

                                                            ■■ Evaluated complement levels.
Appendices




                                                            ■■ Obtained and reviewed unemployment rates.


                                                            32	 Office of Workers’ Compensation Program.
                                                            33	 Rural Substitute, RCA, Rural Carrier Relief, Auxiliary and Vacant.
                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                      Print                                 14
Highlights                                                  ■■ Obtained and evaluated the guidelines for carrier positions.

                                                            ■■ Interviewed headquarters, district, and unit management to determine their processes for monitoring overtime, use of DOIS
                                                               data, performance of route inspections, and pivoting.

                                                            ■■ Interviewed employees and union officials to evaluate the use of overtime.

                                                            We conducted this review from March through September 2014, in accordance with the Council of the Inspectors General on
                                                            Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
Table of Contents




                                                            management on August 5, 2014, and included their comments where appropriate.

                                                            We assessed the reliability of data from the EDW system and other electronic Postal Service data by confirming our analysis and
                                                            results with management and other data sources. We determined that the data were sufficiently reliable for the purposes of
                                                            this report.

                                                            Prior Audit Coverage
                                                                                                                                                                      Monetary Impact
                                                              Report Title                            Report Number                  Final Report Date                  (in millions)
                                                              Overtime Use During Fiscal               HR-AR-13-002                         7/5/2013                         $6.7
                                                              Years 2011 and 2012
Findings




                                                              Report Results:
                                                              Overtime hours accounted for 7.4 and 7.8 percent of total workhours in FYs 2011 and 2012, respectively — well above the Postal
                                                              Service’s target rate of 5 percent. At the locations we visited, we determined the Postal Service incurred significant overtime
                                                              workhours primarily because the workforce was not aligned with workload; there was inadequate supervisory oversight; mail
                                                              arrived late at the delivery units; and a union agreement was negotiated at the local level. In addition, although the time and
                                                              attendance collection system did not send automatic alerts, Postal Service managers and supervisors at the facilities we visited
                                                              used the time and attendance collection system reports to monitor workhours, overtime hours, and unauthorized overtime use.
Recommendations




                                                              We identified 65,553 and 122,765 standby hours in FYs 2011 and 2012, respectively, for three of the four districts we visited,
                                                              at a cost to the Postal Service of $7,513,674. We estimated that 90 percent of these costs are associated with late trips for
                                                              $6,762,306. Management agreed with all of the recommendations but disagreed with the monetary impact.
                                                              Unauthorized Overtime Usage              HR-AR-12-003                       3/30/2012                         $717.5
                                                              in Field Operations
                                                              Report Results:
                                                              The Postal Service has established procedures to assist supervisors with monitoring and controlling unauthorized overtime.
                                                              However, managers and supervisors did not always follow the prescribed procedures. Specifically, they did not always complete
                                                              and maintain Postal Service (PS) Form 1017-B, Unauthorized Overtime Record, for employees who incurred unauthorized
                                                              overtime; provide carriers with feedback when they submitted PS Form 3996, Carrier – Auxiliary Control, to request assistance
                                                              or overtime; update Time and Attendance Collection System to reflect authorized overtime; and control employees’ access to
                                                              time cards. As a result, we identified 7.5 million unauthorized overtime workhours in FY 2010 and 10.6 million in FY 2011, at a
Appendices




                                                              combined cost of $717.5 million. Management agreed with the findings, recommendations, and monetary impact.




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                                       Print                                     15
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                            Print   16
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                            Print   17
Highlights
Table of Contents
Findings




                                                               Contact us via our Hotline and FOIA forms, follow us on social
                                                            networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                   or abuse. Stay informed.
Recommendations




                                                                                  1735 North Lynn Street
                                                                                 Arlington, VA 22209-2020
                                                                                       (703) 248-2100
Appendices




                    Overtime at the Iowa City Post Office
                    Report Number HR-MA-14-009
                                                                                                                                     Print   18
